<html>
<title> - WORKER RIGHTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                             WORKER RIGHTS

=======================================================================

                               REPRINTED

                                from the

                           2007 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2007

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
40-482                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



House                                Senate

SANDER LEVIN, Michigan, Chairman     BYRON DORGAN, North Dakota, Co-Chairman
MARCY KAPTUR, Ohio                   MAX BAUCUS, Montana
MICHAEL M. HONDA, California         CARL LEVIN, Michigan
TOM UDALL, New Mexico                DIANNE FEINSTEIN, California
TIMOTHY J. WALZ, Minnesota           SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         SAM BROWNBACK, Kansas
JOSEPH R. PITTS, Pennsylvania        CHUCK HAGEL, Nebraska
EDWARD R. ROYCE, California          GORDON H. SMITH, Oregon
CHRISTOPHER H. SMITH, New Jersey     MEL MARTINEZ, Florida


                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                 HOWARD M. RADZELY, Department of Labor

                      Douglas Grob, Staff Director

               Murray Scot Tanner, Deputy Staff Director

                                  (ii)
                             Worker Rights


                              INTRODUCTION


    The Chinese government does not fully respect 
internationally recognized worker rights. Chinese citizens are 
not guaranteed either in law or in practice full worker rights 
in accordance with international standards. In the five-year 
period the Commission has reported on worker rights in China, 
the government has made progress in enacting more legal 
protections for workers, but has continued to deny workers the 
fundamental right to organize into independent unions and 
strike to achieve meaningful change. In addition to these 
restrictions, factors such as poor implementation of labor 
protections on the books and collusion between local officials 
and employers create obstacles for workers who attempt to 
protect their rights. Although market liberalizations have 
brought Chinese citizens more freedom to choose their 
employment, along with prosperity and better jobs for some 
workers, social and economic changes also have engendered 
abuses from forced labor and child labor to flagrant violations 
of health and safety standards, wage arrearages, and loss of 
job benefits. Residency restrictions present hardships for 
workers who migrate for jobs in urban areas. In addition, tight 
controls over civil society organizations hinder the ability of 
citizen groups to champion for worker rights.
    In the last five years, local and central governments have 
enacted a series of rules, regulations, and laws on labor, but 
have not created the administrative structure to ensure 
adequate enforcement. A new Labor Contract Law, passed in June 
2007 and to take effect in January 2008, attempts to codify a 
series of protections for worker rights but does not include 
adequate provisions to guarantee equal bargaining power between 
workers and employers, and entrenches the role of China's only 
legal union, the Communist Party-controlled All-China 
Federation of Trade Unions (ACFTU) in contract negotiations.\1\ 
The law's imprecision leaves interpretation and clarification 
to the discretion of implementing officials, further limiting 
the impact of potentially beneficial provisions within the law. 
As the number of labor disputes rise,\2\ the government may aim 
for the law to remedy this source of perceived social unrest, 
but systemic weaknesses in implementing the law challenge the 
law's capacity to protect workers and reduce conflict.
    In 2006-2007, several high profile incidents underscored 
the inhumane conditions and weak protections under which many 
Chinese work. The discovery in 2007 that a massive network of 
small-scale brick kilns in Shanxi and Hunan provinces were 
employing forced labor evidenced China's weakness in 
effectively enforcing even its own labor and workplace safety 
laws. The discovery and admission that child labor was being 
used in the manufacturing of Olympic souvenirs further 
illustrated the state's failure to enforce worker rights.
    China's labor practices contravene its obligations as a 
member of the International Labor Organization (ILO) to respect 
a basic set of internationally recognized labor rights for 
workers, including freedom of association and the ``effective 
recognition'' of the right to collective bargaining.\3\ China 
is also a permanent member of the ILO's governing body.\4\ The 
ILO's Declaration on the Fundamental Principles and Rights at 
Work (1998 Declaration) commits ILO members ``to respect, to 
promote and to realize'' these fundamental rights based on 
``the very fact of [ILO] membership.'' \5\ The ILO's eight core 
conventions articulate the scope of worker rights and 
principles enumerated in the 1998 Declaration. Each member is 
committed to respect the fundamental right or principle 
addressed in each core convention, even if that member state 
has not ratified the convention. China has ratified four of the 
eight ILO core conventions, including two core conventions on 
the abolition of child labor (No. 138 and No. 182) and two on 
non-discrimination in employment and occupation (No. 100 and 
No. 111).\6\ The ILO has reported that the Chinese government 
is preparing to ratify the two core conventions on forced labor 
(No. 29 and No. 105).\7\ Chinese labor law generally 
incorporates the basic obligations of the ILO's eight core 
conventions, with the exception of the provisions relating to 
the freedom of association and the right to collective 
bargaining,\8\ but many of these obligations remain unrealized 
in practice.
    The Chinese government is a state party to the 
International Covenant on Economic, Social, and Cultural Rights 
(ICESCR), which guarantees the right of workers to strike, the 
right of workers to organize independent unions, the right of 
trade unions to function freely, the right of trade unions to 
establish national federations or confederations, and the right 
of the latter to form or join international trade union 
organizations.\9\ In ratifying the ICESCR, the Chinese 
government made a reservation to Article 8(1)(a), which 
guarantees workers the right to form free trade unions. The 
government asserts that application of the article should be 
consistent with Chinese law, which does not allow for the 
creation of independent trade unions.\10\ The Chinese 
government is a signatory to the International Covenant on 
Civil and Political Rights, which guarantees the right to 
freedom of association, ``including the right to form and join 
trade unions[.]'' \11\
    Workers in China have no choice as to their representation 
in the workplace. The ACFTU is China's only official trade 
union and is required by the Trade Union Law to ``uphold the 
leadership of the Communist Party.'' \12\ While the ACFTU has 
made progress in unionizing more workplaces in China, and has 
promoted pro-worker programs where they do not conflict with 
Party policy, the basic structure of the union system in China 
is at odds with meaningful representation of workers' rights 
and interests. Surveys of local ACFTU branches have indicated 
that a majority of union leaders hold concurrent positions 
within Party committees, government, or enterprise. Union 
leaders have represented enterprises, rather than workers, in 
labor dispute arbitration.\13\
    Workers who try to establish independent associations or 
organize demonstrations risk arrest and imprisonment. 
Independent labor organizers continue to serve long jail terms. 
For example, He Chaohui, a former railway worker at the 
Chenzhou Railway 
Bureau and vice-chairperson of the Hunan Workers Autonomous 
Federation during the May 1989 pro-democracy movement, has 
faced multiple detentions, including a current nine-year 
sentence, since taking part in labor strikes and 
demonstrations, and giving information on the protests to 
overseas human rights groups. 
Another long-term prisoner, Hu Shigen (Hu Shenglun), received a 
20-year sentence in 1994 for ``organizing and leading a 
counterrevolutionary group'' and ``engaging in 
counterrevolutionary propaganda and incitement'' after helping 
to establish the China Freedom and Democracy Party and the 
China Free Trade Union Preparatory Committee.\14\


                           LABOR CONTRACT LAW


                                Overview

    The Standing Committee of the National People's Congress 
(NPC) passed a new Labor Contract Law in June 2007, after 
considering multiple draft versions and soliciting public 
comments on the law.\15\ In addition to seeking public 
comments, the Ministry of Labor and Social Security also sought 
technical assistance from U.S. experts in drafting the law. In 
2005 and 2006, a U.S. Department of Labor-funded technical 
cooperation project sponsored a series of workshops and a study 
tour for Chinese officials who requested to be briefed on U.S. 
best practices in employment relationships, termination of 
contracts, part-time employment, regulation of labor 
recruitment, U.S. Wage and Hour regulations, the means of 
protecting worker rights, the means of enhancing compliance, 
and training for investigation.\16\
    The new law, effective January 2008, governs the 
contractual relationship between workers and employers from 
enterprises, individual economic organizations, and private 
non-enterprise units.\17\ The law expands requirements in 
China's 1994 Labor Law that mandate the signing of labor 
contracts.\18\ It requires workers and employers to establish a 
written contract in order to begin a labor relation\19\ and 
creates the presumption of an open-ended contract if the 
parties have not concluded a written contract within one year 
from the start of employment.\20\ The law also includes 
provisions that allow certain workers with existing fixed-term 
contracts to transition to open-ended employment.\21\ The law 
mandates that contracts specify matters including working 
hours, compensation, social insurance, and protections against 
occupational hazards. In addition, the employer and worker may 
add contractual provisions for probationary periods, training, 
supplementary benefits, and insurance.\22\ The basic provisions 
on establishing contracts accompany a series of other 
stipulations within the law that attempt to regularize the 
status of workers employed through staffing agencies; 
strengthen protections in the event of job dismissals; and 
establish a framework for penalizing non-compliance with the 
law.\23\
    Despite strengthening formal legal protections for workers, 
the ultimate extent of the law's effectiveness, especially 
without an independent union system to monitor enforcement, 
remains untested until the law takes effect. China's track 
record for implementing existing labor protections is poor at 
best. One government official has described weak implementation 
as the root cause of China's labor problems.\24\ A series of 
surveys on the enforcement of existing requirements to sign 
labor contracts found that many enterprises fail to use 
contracts, and that workers lacked knowledge of their right to 
sign a contract.\25\ Even if the Labor Contract Law promotes 
the creation of more formal contracts, however, the benefits of 
such a development may have limited impact without adequate 
measures to ensure that employers adhere to the terms of the 
contracts.\26\
    Ambiguities in the law amplify the challenges of 
implementation. While the law does not explicitly require 
employers and employees to enter into new contracts on January 
1, 2008, neither does it say whether it will apply to existing 
employment contracts that do not comply with the new law.\27\ 
The law requires workplaces that receive workers through 
staffing agencies to provide ``benefits suited for the job'' 
but does not elaborate on this provision.\28\ The law allows 
employers to cover their costs for employees' ``professional 
technical training'' by requiring employees first to agree to a 
set service period in exchange, but it provides no definition 
of ``professional technical training'' or a method of valuing 
service.\29\ Finally, the law does not specify whether it will 
apply to employees (whether local or expatriate) of foreign 
company representative offices. Because the law leaves many 
details to be fleshed out through the issuance of supplemental 
regulations and interpretations during implementation, its full 
impact will remain unclear for some time. In the interim, media 
reports indicate that some employers are dismissing workers now 
in order to avoid increased safeguards against terminations 
once the law enters into force.\30\

                          Non-Standard Workers

    The new law attempts to address a gap in legal protection 
for workers employed through staffing agencies, who have 
labored without explicit legal guidelines governing various 
aspects of their relationships with both staffing agencies and 
worksites that hire through the agencies. The Labor Contract 
Law provides that staffing firms fulfill the same function as 
other employers under the law by signing contracts with workers 
that detail the terms of employment. Compliance with the law 
requires staffing firms to agree to fixed-term contracts of at 
least two years and to pay each worker on a monthly basis 
including for periods where the worker has not been dispatched 
to an outside employer.\31\ Compliance also requires workplaces 
that receive workers through staffing agencies to provide the 
same wages as directly hired employees.\32\ The law also 
stipulates that these workplaces provide overtime, benefits, 
and incremental wage increases, though the law lacks details on 
these requirements.\33\ In addition, workers may join a union 
affiliated with either the staffing firm or the workplace to 
which they are dispatched.\34\ Finally, the law mandates that 
neither staffing firms nor workplaces that receive workers may 
levy placement fees from workers, nor can the staffing firm 
keep part of the worker's wages.\35\ The provisions expand on 
more limited stipulations for staffing firms specified in the 
law's draft form.\36\
    The Labor Contract Law attempts to extend a modest new 
protection for part-time employees by mandating that these 
workers (defined as those who work no more than 4 hours a day 
or 24 hours a week) not receive less than the local minimum 
hourly wage.\37\ Under the 1994 Labor Law, part-time employees 
had no such protection, and in 2007, news sources in China reported that 
fast food restaurants in Guangzhou paid part-timers 40 percent 
less than the minimum wage.\38\ In addition, the law mandates 
that part-time employees be paid no later than every 15 
days.\39\ However, the Labor Contract Law does not require 
employers to sign written contracts with part-time workers, and 
allows employers to terminate part-time workers without notice 
or termination compensation.\40\ The law's prospects for 
improving conditions for non-standard workers, therefore, are 
diminished not only by problems with implementation, but also 
by certain weaknesses in the law itself.

                              Terminations

    The Labor Contract Law stipulates a series of guidelines 
governing workforce reductions. Where employers reduce their 
workforce by 20 or more employees--a reduction from the 50 or 
more workers earlier specified in the drafting process\41\--or 
if they terminate employment for fewer than 20 workers but by 
an amount that comprises 10 percent or more of the workforce, 
the union or all employees must receive 30 days' advance 
notice. In addition, in order to comply with the law, the 
employer must explain the staff reduction and ``listen to the 
opinions of the trade union or the employees.'' \42\ Such 
provisions reinforce the tendency that runs throughout the new 
law requiring notification to workers and the union, rather 
than negotiations, over major issues such as mass layoffs. In 
the event of layoffs, the law stipulates giving priority to 
retaining workers with open-ended contracts or long periods of 
employment under fixed-term contracts, as well as workers who 
are the sole wage earner in the family and must support 
children or elderly family members.\43\ The law also forbids 
laying off several categories of workers, including workers 
near retirement, pregnant and postpartum workers, and workers 
who have sustained on-the-job injuries or occupational 
diseases, or are in the process of having such a disease 
diagnosed.\44\ Where employers end a contract unilaterally, 
they must notify the union and allow the union to intervene 
where the termination violates the law or contractual 
terms.\45\
    The law also specifies conditions under which employers 
must give severance pay to employees. Severance provisions 
apply to categories of workers including those laid off and 
workers who terminate their contracts because of illegal 
practices on the part of the employer.\46\ The law specifies a 
formula for determining severance based on one month of wages 
for each year worked; workers employed for fewer than six 
months receive half of the monthly wage.\47\ It also specifies 
severance pay caps for high-wage workers.\48\

               Enforcement Mechanisms and Legal Liability

    The Labor Contract Law includes a series of provisions to 
monitor enforcement of the law and penalize non-compliance. It 
assigns local labor officials at the county level and above 
with responsibility for overseeing implementation, including 
the enforcement of specific contractual terms.\49\ The law also 
empowers authorities from other offices, such as construction 
and health officials, to monitor aspects of the law within the 
scope of their jurisdiction.\50\ A report from the State 
Council Research Office issued in 2006 noted, however, a 
``serious shortage'' of supervisors to enforce implementation 
of labor laws, drawing into question the effectiveness of 
provisions in the Labor Contract Law.\51\
    Workers who allege an infringement of their rights may 
appeal to government authorities to address the matter, apply 
for arbitration, or initiate a lawsuit.\52\ A section on legal 
liability requires employers who fail to sign a contract after 
one month of employing a worker to pay double wages.\53\ It 
also articulates a series of other remedies for workers and 
stipulates additional penalties for employers, staffing firms, 
and labor officials who violate the law.\54\ One provision 
holds workers responsible for damages where they cause loss to 
an employer for ending a labor contract in violation of the law 
or breaching confidentiality and competition agreements.\55\

                         Collective Bargaining

    The Labor Contract Law includes six articles that specify 
guidelines for negotiating ``collective contracts,'' \56\ but 
it does not provide for collective bargaining. Collective 
contracting provisions have appeared in Chinese law for many 
years.\57\ The limited scope of the collective contracting 
process in the new law, including the lack of independent union 
participation, however, prevents it from translating into a 
meaningful mechanism for collective bargaining. Some leading 
Chinese experts argue that the meaning of the phrase 
``collective agreements'' is rendered meaningless due to the 
ACFTU's historic record of never having negotiated genuine 
collective bargaining agreements.\58\ Many provisions in the 
Labor Contract Law appear to be based on the presumption that 
workers will negotiate individual contracts. The final draft of 
the Labor Contract Law includes a provision that permits 
workers representatives to negotiate collective contracts where 
no ACFTU branch exists in the workplace, but such negotiations 
are ``under the guidance of the ACFTU at the next higher 
level.'' \59\ As three labor experts have noted, however, ``the 
idea of [ACFTU officials] representing and protecting the 
legitimate rights and interests of their members in opposition 
to those of the employer is something unfamiliar, if not 
totally alien.'' \60\ To date, the terms of collective 
contracts have been limited. One study of collective contracts 
observed that a typical contract lacks ``detailed specification 
of the terms and conditions of labour, and often does not 
include reference to many of the benefits that are in fact 
provided by the enterprise.'' \61\ In addition, workers' input 
in the process is limited, and employers have concluded 
collective contracts through model agreements rather than 
through a process of negotiation with employees.\62\ At the 
same time, use of the mechanism is widespread. According to the 
ACFTU, as of September 2006, 862,000 collective contracts 
covering 110 million workers had been signed, representing a 
14.3 percent 
increase since 2005 in the number of contracts signed and an 
8.3 percent increase in number of workers covered.\63\

                             Labor Disputes

    The Labor Contract Law includes default provisions designed 
to function in the event of dispute over contractual terms. 
Workers and employers may renegotiate a contract in the event 
specific terms are not clearly specified in a contract, and 
where negotiations fail, the terms of the collective contract 
or ``pertinent regulations of the state'' apply.\64\ The law 
also provides for the role of a labor arbitration board or 
people's court in the event the validity of a contract is 
disputed.\65\ In addition, the labor union may apply for 
arbitration or initiate a lawsuit in the event of dispute over 
a collective contract.\66\ Individual workers may do the same 
where their rights have been violated, and the law mandates 
that the labor union supply ``support and help'' in such 
cases.\67\ The union's divided loyalties in practice, however, 
call into questions the efficacy of these provisions. In 
addition, the high cost of arbitration fees has the practical 
effect of discouraging workers from pursuing this avenue of 
dispute resolution.\68\ Moreover, the law does not specify 
whether workers must first enter mediation before pursuing 
arbitration or legal suits, the first stage of labor dispute 
resolution listed in the 1994 Labor Law.\69\ Unlike the 1994 
Labor Law, it does not specify that workers must first exhaust 
arbitration options 
before pursuing a legal suit.\70\
    In addition, broader legislative developments may 
ultimately deny workers a full range of options for resolving 
labor disputes. A new draft Law on Labor Dispute Mediation and 
Arbitration placed before the NPC Standing Committee on August 
26, 2007, if passed, would limit the role of courts in labor 
dispute resolution. According to a vice-chair of the 
Legislative Affairs Commission of the NPC Standing Committee, 
as cited in a Xinhua article, ``The draft bill is for 
strengthening mediation and improving arbitration so as to help 
fairly solve labor disputes without going to court and thus 
safeguard employee's legitimate rights and promote social 
harmony'' [emphasis added].\71\ The draft allows companies to 
establish labor mediation committees in-house ``so as to solve 
disputes at [the] grassroots level,'' according to the Xinhua 
article, and specifies that the mediation committees may 
consist only of management and employees.\72\ Taken as a whole, 
China's emerging national labor law regime, billed as both 
strengthening worker rights and grassroots dispute resolution, 
appears equally intended to make sure that disputes do not 
enter legal channels that lead to the central government. 
Whether this represents deliberate local empowerment as part of 
a measured long-term strategy to induce grassroots legal 
development, a strategy of crisis localization and insulation 
for the center, or some combination, remains an open question.

            Criticism and Support for the Labor Contract Law

    Observers have been divided in their evaluations of the 
Labor Contract Law. While noting limitations for enforcing 
workers rights in practice, some worker rights organizations 
have expressed support for the law's role in strengthening 
protections for workers. For example, the China Labour 
Bulletin, directed by Hong Kong labor activist Han Dongfang, 
describes the new law as ``a laudable attempt to protect the 
rights of individual workers'' in its weekly publication but 
contends that workers need freedom to join unions, not just the 
ACFTU, and to freely elect their own representatives who would 
have the power to negotiate with management for collective 
bargaining agreements. It also expressed concerns about 
protections in earlier drafts omitted from the final 
version.\73\
    Businesses and business associations have had mixed 
reactions to the new law. Some multi-national companies raised 
objections to the law during the drafting process because of 
provisions perceived as impediments to employers, and analysts 
have drawn attention to new requirements and extra costs the 
law may impose on foreign firms.\74\
    U.S. and European multi-national companies and their 
representative associations commented upon or urged revisions 
to the law after publication of a draft version in spring 2006 
and continuing through the next year.\75\ The American Chamber 
of Commerce in the People's Republic of China ``called several 
meetings of its members and formed a team to carefully study 
and discuss the draft'' and prepared a set of comments as part 
of the NPC's formal public process of soliciting opinions.\76\ 
Some foreign corporations and their associations endorsed 
revisions that would weaken some of the formal protections 
written into draft versions of the law, according to business 
association, media, and other sources.\77\ Among the aspects of 
the drafts that concerned these companies were clauses on 
hiring and termination procedures, layoffs, employee 
probationary periods, the status of temporary workers, the 
power of the official trade union, severance pay provisions, 
and employee training repayment.\78\ The U.S.-China Business 
Council contended that limitations on the use of temporary 
employees would prove ``prohibitively expensive'' for 
businesses. \79\ NGO sources report that some business 
organizations threatened to withdraw manufacturing from 
China.\80\
    In its comments on the draft law publicized in March 2006, 
the American Chamber of Commerce in the People's Republic of 
China cautioned against ``impos[ing] additional and unrealistic 
obligations on employers'' against the backdrop of poor 
implementation of existing labor laws, stating that the law 
instead ``should leave enough latitude for local governments to 
make rules according to local needs.'' \81\ The European 
Chamber of Commerce expressed support for the final version of 
the law, after initial criticism, and urged the Chinese 
government to focus on adequate implementation of the law.\82\
    In answer to earlier complaints by foreign investors that 
the new law would have a detrimental effect on foreign 
investment, the director of the law department of the ACFTU 
stated that the Labor Contract Law ``not only protects workers' 
interests and rights, but also equally protects employers.'' 
\83\ According to one Chinese government official, ``If there 
were some bias, it would be in favor of foreign investors 
because local governments have great tolerance for them in 
order to attract and retain investment.'' \84\


                     OTHER LEGISLATIVE DEVELOPMENTS


    In August 2007, the Standing Committee of the National 
People's Congress adopted an Employment Promotion Law, 
effective January 1, 2008, that stipulates measures relating to 
the promotion of employment growth and equal access to 
employment.\85\ In addition to containing provisions aimed at 
prohibiting discrimination based on factors including 
ethnicity, race, sex, and religious belief,\86\ the law 
addresses the equal right to work for women and ethnic 
minorities;\87\ specifies disabled people's right to work;\88\ 
stipulates that rural workers' access to work should ``be equal 
to'' urban workers;\89\ and forbids employers from refusing to 
hire carriers of infectious diseases.\90\ The law also allows 
workers to initiate lawsuits in the event of 
discrimination.\91\ A survey publicized in June 2007 found 
widespread discrimination among job-seekers, especially 
physically disabled people, HIV/AIDS and hepatitis B carriers, 
and migrant workers. Women reported discrimination related to 
their entitlement to maternity benefits.\92\ [See Section II-- 
Status of Women for more information.]
    If properly implemented, the law may offer support for 
legal advocates pursuing employment discrimination cases, but other 
aspects of the law raise potential difficulties. One article 
assigns the state to spur workers to develop a ``proper'' 
mentality in job selections.\93\ Another provision carves out a 
role for Party-controlled 
organizations like the Communist Youth League to aid in 
implementation of the law, which may dampen the role of civil 
society groups that promote implementation in ways that 
challenge Party policy.\94\ Potentially beneficial safeguards 
also face barriers due to a lack of clearly defined terms. A 
provision to promote the employment of workers with 
``employment hardship,'' for example, defines this category of 
workers in general terms but leaves precise details to local 
authorities, introducing the possibility of uneven protections 
that reduce the law's overall impact.\95\ In addition, the law 
specifies the establishment of an unemployment insurance 
system, but provides no extensive details on 
implementation.\96\


                     CONDITIONS FOR CHINESE WORKERS


                                 Wages

    The 1994 Labor Law guarantees minimum wages for workers, 
and assigns local governments to set wage standards for each 
region.\97\ The new Labor Contract Law improves formal 
monitoring requirements to verify workers receive minimum 
wages. Article 74 requires local labor bureaus to monitor labor 
practices to ensure rates adhere to minimum wage standards. 
Article 85 imposes legal liability on employers who pay rates 
below minimum wage. In addition, Article 72 guarantees minimum 
hourly wages for part-time workers.\98\
    The government reported progress in 2006 in establishing 
hourly minimum wage standards in most of its provinces. 
According to a report from the Ministry of Labor and Social 
Security (MOLSS) released in October 2006, 29 of China's 31 
provincial-level areas had established hourly minimum wage 
standards, compared to 23 provinces in 2005. In addition, the 
report found that all 31 provincial-level areas maintained 
monthly minimum wage standards. The 
report shows greater local government compliance in 2006 than 
in 2005 with requirements to review monthly minimum wage 
standards every two years.\99\ Local government discretion to 
set minimum wages has resulted in wide variances across 
provinces.\100\ In 2006, the All-China Federation of Trade 
Unions reportedly urged provincial-level governments to 
increase minimum wages.\101\
    Illegal labor practices have undermined minimum wage 
guarantees. In an investigation of working conditions for 
migrant workers in China, Amnesty International noted that 
``wages of internal 
migrant workers are effectively reduced by management through 
inadequate pay for compulsory overtime, fines, unpaid wages, 
and other methods.'' \102\ The investigation found that some 
factories' fines for tardiness--calculated for each minute a 
worker is late--could constitute a major reduction in a 
worker's daily salary.\103\ (See the discussions on ``wage 
arrearages'' and ``working hours,'' below, for additional 
information.)
    China's leaders have expressed concerns over the growing 
income gap between rural and urban workers, and between earners 
at the top of the income ladder and those at the bottom. In 
July 2006, the government announced it would institute reforms 
aimed at cutting the wealth gap to promote a ``harmonious'' 
society and ``improve the socialist market economy,'' with 
focus on increasing the middle class and improving wages of 
low-level government employees.\104\ Party officials and 
commentators have not yet settled on a firm opinion of the 
wealth gap problem. In November 2006, Ministry of Finance 
official Wang Bao'an outlined a new wage plan aimed at limiting 
the rate of wage increases at the high end of the scale; 
standardizing income subsidies; stabilizing the wages of 
middle-income earners; and raising the income of low-wage 
earners.\105\ A commentary reprinted in the China Economic 
Daily, however, argued that ``the existence of a high-income 
group is inevitable in a market economy,'' and argued against 
``robbing the rich to give to the poor.'' \106\ Government 
official Qiu Xiaoping, of the Ministry of Labor and Social 
Security, agreed that the government should not intervene in 
setting wages in a socialist market economy where a ``salary is 
the market price of labor.'' \107\

                            Wage Arrearages

    Wage arrearages remains a serious problem, especially for 
migrant workers. In June 2006, the Ministry of Communications, 
which oversees China's transportation sector, issued a circular 
ordering provincial-level departments to finish resolving 
migrant workers' claims for unpaid wages from work on 
transportation projects by the end of 2006. The Ministry 
circular responds to a 2004 State Council decree to resolve all 
migrant worker wage arrears that have resulted from unpaid debt 
on government projects.\108\ Government efforts have helped 
lower the amount of outstanding unpaid wages, but progress in 
this area remains limited. Employers in the construction sector 
still owe workers a reported 10 billion yuan (US$1.2 
billion).\109\ An inspection in Gansu province found that 
companies owed 130 million yuan (US$16.6 million) in back wages 
to 130,000 migrant workers, mainly in the construction and 
restaurant industries.\110\
    Some local governments have issued legal guidance and taken 
other steps to address wage arrearages. Trial legal measures 
implemented in Qinghai province in 2006 require construction 
companies to set aside and deposit wage funds before projects 
begin, to ensure that workers will be paid when the project is 
completed. The measures punish enterprises that fail to deposit 
sufficient funds, that do not make their deposits in a timely 
manner, or that provide false contract information, and allow 
authorities to bar non-compliant firms from participating in 
the construction market.\111\ In Guangdong province, 
authorities had barred 30 enterprises for failing to pay 
employee wages as of June 2006. Though the government had given 
the companies previous warnings and implemented other punitive 
measures, the companies failed to remedy an outstanding debt of 
over 20 million yuan (US$2.5 million) to over 8,000 
workers.\112\
    Subcontracting practices within industry exacerbate the 
problem of wage arrearages. When investors and developers 
default on their payments to construction companies, workers at 
the end of the chain of labor subcontractors lack the means to 
recover wages from the original defaulters. Subcontractors, 
including companies that operate illegally, neglect their own 
duties to pay laborers and leave workers without any direct 
avenue to demand their salaries. In some cases, subcontractors 
will pay partial wages to force workers to stay on site to 
finish construction projects.\113\
    Wage arrearages have resulted in protests and 
demonstrations by workers, and some Chinese employers have 
responding by hiring thugs or gangsters to drive off the 
protesters. In July 2007, a group of armed gangsters beat up 
300 migrant workers who had gone on strike in Guangdong 
province to collect four months of back pay. The subcontractor 
construction company claimed that it could not pay the workers 
because it had not been paid by the contractor.\114\
    Workers who try to take legal measures to recover lost 
wages face prohibitive expenses and limited possibilities of 
recovering wages, even where adjudicators decide in their 
favor.\115\ Despite these obstacles, there has been a steady 
increase in the number of workers who turn to labor arbitration 
to settle their disputes with employers.\116\ In addition to 
wage arrearages, sources of disputes have included illegal and 
improperly compensated overtime and failure to adhere to labor 
contracts.\117\

                             Working Hours

    China's labor law mandates a maximum 8-hour work day and 
44-hour average work week, but compliance with these standards 
is weak.\118\ One specialist in China's compliance practices 
has estimated that work weeks above 80 hours are common in the 
apparel industry and other export sectors.\119\ A study of 
migrant workers in southern China found that workers were 
subject to forced overtime to upwards of 16 hours a day. The 
report noted that employers dodged paying overtime rates by 
compensating workers on a piece-rate basis with quotas high 
enough to avoid requirements to pay overtime wages. Workers who 
failed to comply with overtime requirements or who were late 
faced fines.\120\
    Suppliers in China avoid exposing themselves to claims of 
requiring illegal, long hours by hiring firms that help them 
set up double booking systems designed to deceive foreign 
importers who aim to adhere to Chinese rules and regulations. A 
detailed account of the practice found that these firms not 
only help suppliers set up fake books for audit, but also coach 
managers and employees on answers to give the auditors. One 
specialist has estimated that only 5 percent of Chinese 
suppliers comply with overtime regulations, and 20 percent 
adhere to wage regulations.\121\

                                Benefits

    The routine denial of legally guaranteed job benefits to 
workers by some employers is a serious problem in China. Gaps 
in social security and labor insurance coverage remain 
widespread. Though the government has reported that 100 million 
workers had unemployment insurance as of November 2006, this 
figure accounted for only one-seventh of the total 760 million 
workers in the country.\122\ An International Labor 
Organization study found that enterprises dodge requirements to 
provide contributions for old-age insurance by misreporting the 
number of employees and wages, as well as by keeping workers in 
irregular employment positions.\123\ In addition to failing to 
secure social security safeguards, employers also have denied 
workers benefits ranging from paid vacations to sick 
leave.\124\ Workers have described being fined for taking sick 
days.\125\
    Women workers face additional obstacles, as employers 
withhold maternity leave and related benefits.\126\ A 2006 
survey of women migrant workers conducted by the All-China 
Women's Federation found that only 6.7 percent of surveyed 
workers had maternity insurance. Of the 36.4 percent who 
reported that they were allowed to take maternity leave, 64.5 
percent said this leave was unpaid.\127\ The survey also found 
that only 23.8 percent have medical insurance and 19.1 percent 
have occupational insurance.\128\ [See Section II--Status of 
Women for more information.]
    Systemic failings of local governance exacerbate 
shortcomings in the provision of social security benefits, as 
local governments bear responsibility for providing coverage 
for retirement, illness or injury, occupational injuries, 
joblessness, and childbirth.\129\ After local mismanagement of 
the pension system in Shanghai, central government departments 
issued a series of legal guidance in 2006 to increase oversight 
of fund management.\130\ Li Jinhua, auditor-general of the 
National Audit Office, pledged in 2007 to stop the misuse of 
pension funds and said local governments would be held 
responsible for repaying misused funds out of their own 
budgets.\131\ Despite these measures, fundamental flaws within 
the system persist. As one overseas media source observed, 
``The party has talked for decades about building a social 
safety net, yet as the working population ages the government 
isn't investing nearly enough to head off looming crises in 
health care, education, and pensions.'' \132\ Chinese officials 
reported in 2006 that only 6 percent of the population 
benefited from the existing social insurance system and pledged 
to enlarge participation by 2020.\133\
    In 2006, the government announced it would take 
``compulsory measures'' to promote employer participation in 
on-the-job injury insurance for migrant workers, expanding 
coverage to over 140 million people by the year 2010. By the 
end of July 2006, 18.71 million migrant workers nationwide were 
covered by the insurance, while 87 million workers overall had 
such insurance as of April 2006.\134\


                             WORKER SAFETY


    Over the last year, the Chinese government enhanced its 
efforts to enforce work safety laws by conducting national 
inspections, promoting accident prevention through safety 
campaigns, enforcing the closure of small, illegal mines, and 
actively seeking international cooperation. According to latest 
statistics provided by the Chinese government, mine fatalities 
decreased by 20.1 percent in 2006 compared to 2005; fatalities 
during the first eight months of 2007 also decreased by 15.7 
percent compared to 2006, according to latest statistics 
provided by the government.\135\

              Industrial Accidents and Occupational Health

    Industrial injuries and deaths remain widespread in China, 
despite reported decreases in the number of workplace deaths 
and accidents.\136\ In February 2006, the State Administration 
for Workplace Safety (SAWS) closed nearly 36,000 businesses 
that had failed to obtain safety licenses by the end of 
2005.\137\ The government amended the Criminal Law in June 2006 
to broaden punishments for work safety violations. The 
amendments included new penalties for ``responsible'' personnel 
who hinder rescue efforts by covering up or failing to report 
accidents, though the amendments do not clarify how 
responsibility for reporting such incidents is determined.\138\ 
In August 2006, the government pledged over US$50 billion to 
lower workplace accidents.\139\
    China has high rates of occupational disease and injuries. 
As of 2006, official statistics indicated that 440,000 workers 
suffered from the respiratory condition pneumonoconiosis, as a 
result of exposure to toxic particles. Unofficial estimates 
place the number as high as 5 million.\140\ In 2006, government 
officials estimated the total number of workers with 
occupational illnesses may be as high as 700 million.\141\ 
Workers have reported that workplaces fail to educate them on 
occupational hazards or provide adequate safety equipment.\142\

                          Coal Mine Accidents

    China's coal mining sector continues to have high accident 
and death rates, and without independent worker organizations, 
coal miners are limited in their ability to promote safer 
working conditions. Though government statistics indicate a 
decline in deaths in coal mine disasters, official statistics 
are unreliable, and the reported death rate remains high 
nonetheless. In 2006, officials indicated that 4,746 workers 
died in coal mine accidents, representing a decline of 20 
percent from 2005.\143\ Unofficial estimates have placed the 
number as high as 20,000, not including the number of workers 
who die from mining-related diseases.\144\ The central 
government issued a series of legal guidance in 2006 aimed at 
addressing coal mine safety. Interim provisions issued in 
November 2006, for example, stipulate penalties for failing to 
correct hidden dangers that result in an accident; concealing, 
misreporting, or providing a delayed report of an accident; and 
allowing mines with 
revoked licenses to continue operations.\145\
    Despite measures to penalize violations of coal mine 
safety, punishment of coal mine officials is limited in 
practice. In a Supreme People's Procuratorate investigation of 
officials charged for their involvement in mining disasters, 
95.6 percent were not given any punishment or were given 
suspended sentences.\146\ In one case, where 56 miners died in 
a flood at a coal mine in the Xinjiang Uighur Autonomous 
Region, public outrage resulted in a retrial of the township 
chief, whose sentence was increased from one year to 12.\147\ 
Officials and mine operators have thwarted efforts to 
reconstruct evidence from coal mine disasters. After a series 
of accidents in April 2007, China's chief safety officer, SAWS 
head Li Yizhong, commented that mine operators ``sabotaged the 
(accident) scenes, destroyed incriminating evidence and removed 
the bodies.'' \148\
    China's coal is the source of its huge economic growth rate 
and some of its worst corruption.\149\ Weak central government 
control over local governments has forced central authorities 
to postpone closing many small mines until 2010. These mines 
are the most dangerous ones, but are highly lucrative for local 
owners. Mine owners raise production levels above the legal 
limit, and if accidents happen, bribe local officials to ignore 
their practices. Overseas media reported that mine owners have 
sent corpses to other provinces to avoid requirements to report 
accidents with more than three deaths.\150\


                            MIGRANT WORKERS


    Chinese migrants face numerous obstacles in the protection 
of their labor rights, and employers have exploited migrant 
workers' uprooted status to deny them fair working conditions. 
A report from the State Council Research Office found that 
wages for migrant workers are ``universally low;'' workplaces 
lack ``the most basic labor protection[s];'' migrant workers 
``engage in overly intensive labor for excessively long 
hours,'' without a guaranteed right to rest; and migrant 
workers are ``unable to obtain employment rights and public 
employment services'' on a par with permanent urban 
residents.\151\ Migrant workers are reportedly denied a total 
of 100 billion yuan in back pay, with 94 percent of migrant 
workers in the construction sector not paid on time.\152\ The 
central government has enacted a series of decrees to ease 
restrictions for 
migrant workers, but the measures lack sufficient legal force 
and sustainability at the local government level to ensure 
consistent implementation. [See Section II--Freedom of 
Residency and Travel for more information about migrant 
workers.]
    Thirty-one Chinese city governments agreed to a plan in 
2007 to set up a network of legal aid centers among the cities 
to improve legal access for migrant workers and ensure 
accountability among legal aid providers. Called the Chongqing 
Pact, the agreement obliges legal aid centers in the network to 
help migrant workers with issues such as labor disputes and 
work-related injuries, regardless of a worker's residency 
status. It also requires legal aid centers in a migrant 
worker's original place of residency to assist in the 
process.\153\ The program may be designed in part to avoid the 
demonstrations, and sometimes violence, that break out when 
workers are not paid.
    Chinese officials reported in June 2007 on a draft plan to 
change its pension system to address migrant workers' needs. 
Under the proposed plan, those with steady employment would 
join current pension schemes, and those without a permanent 
place of employment would enter a new program designed 
specifically for that population. Under the proposed system, 
employers and employees would make mandatory contributions to 
the fund that would be shifted to accounts in the migrants' 
home towns but that would 
retain portability as migrants change jobs and relocate.\154\ A 
2006 investigation on old-age pensions by the International 
Labor Organization identified an existing lack of portability 
of pension funds as one of the ``major barriers'' to coverage 
for migrants.\155\


                              CHILD LABOR


    Child labor remains a persistent problem within China, 
despite legal measures to prohibit the practice. As a member of 
the International Labor Organization (ILO), China has ratified 
the two core conventions on the elimination of child 
labor.\156\ China's Labor Law and related legislation prohibit 
the employment of minors under 16,\157\ and national legal 
provisions prohibiting child labor stipulate a series of fines 
for employing children.\158\ Under the Criminal Law, employers 
and supervisors face prison sentences of up to seven years for 
forcing children to work under conditions of extreme 
danger.\159\ Systemic problems in enforcement, however, have 
dulled the effects of these legal measures, though the overall 
extent of child labor in China is unclear due to the government 
categorizing data on the matter as ``highly secret.'' \160\ A 
report on child labor in China found that child laborers 
generally work in low-skill service sectors as well as small 
workshops and businesses, including textile, toy, and shoe 
manufacturing enterprises.\161\ It noted that many under-age 
laborers are in their teens, typically ranging from 13 to 15 
years old, a phenomenon exacerbated by problems in the 
education system and labor shortages of adult workers.\162\ 
Children in detention facilities also have been subjected to 
forced labor.\163\
    Events from the past year underscore the government's 
inability to prevent child labor. Underage workers were among 
the forced laborers found working in brick kiln mines in 2007, 
highlighting the existence of what the ILO terms the ``worst 
forms of child labor.'' \164\ [See the subsection on ``Forced 
Labor,'' below, for more information on forced labor in brick 
kilns.] A company that produces Olympics-related products 
admitted in 2007 that children as young as 12 years old had 
worked in the factory.\165\
    Although the Chinese government has condemned the use of 
child labor and pledged to take stronger measures to combat 
it,\166\ it continues to actively endorse other forms of child 
labor under the guise of work-study activities. Under work-
study programs implemented in various parts of China, children 
as young as elementary school students pick crops and engage in 
other physical labor. In the Xinjiang Uighur Autonomous Region 
(XUAR), for example, some 800,000 students began their 2006 
academic year by picking cotton in school-organized work-study 
programs, while elementary school students in some parts of the 
XUAR were forced to pick hops. The XUAR government issued legal 
guidance that year to outline the contours of this labor 
system, stating that priority should be placed on using labor 
revenue to buy accident insurance for students and liability 
insurance for schools. Reports from the region indicated that 
in recent years students had been made to work in 12-hour 
shifts and suffered injuries from dangerous working conditions 
and sexual abuse from adult laborers. [See Section II--Ethnic 
Minority Rights for more information on conditions in the 
XUAR.] Also in 2006, over 10,000 students in the fourth grade 
and higher in a city in Gansu province were made to harvest 
corn.\167\
    Central government legislation allows this form of child 
labor. National provisions prohibiting child labor provide that 
``education practice labor'' and vocational skills training 
labor organized by schools and other educational and vocational 
institutes do not constitute the use of child labor when such 
activities do not adversely affect the safety and health of the 
students.\168\ The Education Law supports schools that 
establish work-study and other programs, provided that the 
programs do not negatively affect normal studies.\169\ A 
nationwide regulation on work-study programs for elementary and 
secondary school students outlines the general terms of such 
programs, which it says are meant to cultivate morals, 
contribute to production outputs, and generate resources for 
improving schools.\170\ These provisions contravene China's 
obligations as a Member State to ILO conventions prohibiting 
child labor.\171\ In 2006, the ILO's Committee of Experts on 
the Applications of Conventions and Recommendations 
``expresse[d] . . . concern at the situation of children under 
18 years performing forced labour not only in the framework of 
re-educational and reformative measures, but also in regular 
work programmes at school.'' \172\
    Beyond the parameters of government-approved work study 
programs, some teachers have used their position of authority 
to induce students into exploitative working conditions in 
factories far from home. In 2006, for example, a teacher in 
Henan province recruited 84 female students from her school to 
work in a can factory in Zhejiang province. Students labored 
under exploitative conditions until some escaped. Authorities 
rescued the remaining students.\173\ The same year, teachers at 
a school in Shaanxi province arranged for approximately 600 
students, including under-age minors, to do ``work-study'' in 
an electronics factory in Guangdong province, where students 
were reported to work up to 14 hours a day without full 
wages.\174\


                              FORCED LABOR


    In May and June 2007, Chinese media and Internet activists 
uncovered a massive network of forced labor in brick kilns in 
Shanxi and Henan provinces. Reports indicated that people 
forced to work in the kilns included children and mentally 
challenged adults kidnapped by human traffickers and sold to 
the kilns, where they were beaten, denied food, and forced to 
work up to 20 hours per day. In other cases, workers were lured 
to the kilns through promises of high salaries.\175\ One father 
described his son's condition when he found him:

        My son was totally dumb, not even knowing how to cry, 
        or to scream or to call out ``father''[ . . .] He was 
        in rags and had wounds all over his body. Within three 
        months he had lost over [22 pounds].\176\

    Chinese officials announced in August 2007 that a 
nationwide campaign led to the rescue of 1,340 enslaved 
workers,\177\ but government reports of the size and scope of 
the problem appeared to conflict with accounts by citizens. 
Parents from Henan province, for example, said that up to 1,000 
children were forced into labor in Shanxi province, but Shanxi 
provincial vice-governor Xue Yanzhong said that authorities had 
inspected 4,861 brick kilns in the province and identified only 
15 child workers. According to Xue, only 17 of the brick kilns 
inspected used forced labor.\178\
    The reports of forced labor reveal a longstanding 
phenomenon, according to an editorial in the Chinese newspaper 
Southern Weekly:

        The dirty slave trade has been thriving for a long time 
        but the local government didn't take any action. It's 
        become an actual accomplice. The scandal is so massive 
        and catastrophic that it poses a serious threat to 
        public security.\179\

    According to a deputy director from the Ministry of Public 
Security, official knowledge of the forced labor system goes 
back as far as 2004. At that time, police discovered child 
labor being used in brick kilns in Henan province after a 
parent asked for help in finding his child. The deputy director 
considered the problem ``solved . . . under the instructions of 
our leaders.'' A kiln contractor reported that many kiln 
operators received advance notice of the 
inspections from local police and hid enslaved laborers during 
inspections. Kilns were only closed if they had no business 
licenses or did not adhere to safety and environmental 
standards, not because they were using forced labor.\180\
    By the middle of July 2007, 29 mine supervisors and owners 
received prison sentences for their involvement in forced 
labor. Of those convicted, a foreman who beat a mentally 
disabled worker to death was given the death penalty. The owner 
of this kiln, a son of a local Communist Party official, 
received a sentence of nine years. Other defendants were given 
prison terms from two years to life in prison.\181\ Critics 
have complained that these few convicted criminals were being 
used to deflect attention from the involvement of Party 
officials.\182\ By August, no senior officials had been 
punished and only 95 low ranking officials had been 
reprimanded.\183\ [For information regarding Chinese officials' 
disclosure of information on the forced labor scandal see 
Section II--Freedom of Expression.]
    In June, the All-China Lawyers Association asked the 
National People's Congress Standing Committee to introduce new 
legislation making slavery a criminal charge. The Association 
noted that current law applies only to legally recognized 
employers and does not apply to individuals or illegal 
workplaces.\184\


                    U.S.-CHINA BILATERAL COOPERATION


    The U.S. Department of Labor and two Chinese government 
agencies continued to conduct cooperative activities during 
2007 on wage and hour laws, occupational safety and health, 
mine safety, and pension oversight. The two countries renewed 
Letters of Understanding related to these areas and pledged to 
continue the 
cooperative activities for four more years. In addition, two 
new cooperative agreements were signed in the areas of 
unemployment insurance program administration and labor 
statistics.\185\

                                Endnotes

    \1\ See the discussion on the ``Labor Contract Law,'' infra, for 
more information.
    \2\ See, e.g., Guan Xiaofeng, ``Labor Disputes Threaten 
Stability,'' China Daily, 30 January 07 (Open Source Center, 30 January 
07).
    \3\ These other rights are ``the elimination of all forms of forced 
or compulsory labour; the effective abolition of child labour; and the 
elimination of discrimination in respect of employment and 
occupation.'' ILO Declaration on Fundamental Principles and Rights at 
Work, 18 June 98, International Labor Organization (Online), art. 2 
[hereinafter ILO Declaration].
    \4\ See ``ILO Tripartite Constituents in China,'' International 
Labour Organization (Online), last visited 27 September 07.
    \5\ ILO Declaration, art. 2. China has been a member of the ILO 
since its founding in 1919. For more information, see the country 
profile on China in the ILO database of labor, social security and 
human rights legislation (NATLEX) (Online).
    \6\ ``Ratifications of the Fundamental Human Rights Conventions by 
Country,'' International Labor Organization (Online), 11 September 07.
    \7\ ``China: Forced Labor and Trafficking: The Role of Labour 
Institution in Law Enforcement and International Cooperation,'' 
International Labour Organization (Online), August 05.
    \8\ See generally PRC Labor Law, enacted 5 July 94, art. 12.
    \9\ International Covenant on Economic, Social, and Cultural Rights 
adopted by General Assembly resolution 2200A (XXI) of 16 December 66, 
entry into force 3 January 76, art. 8.
    \10\ Declarations and Reservations, United Nations Treaty 
Collection (Online), 5 February 02. Article 10 of China's Trade Union 
Law establishes the All-China Federation of Trade Unions as the 
``unified national trade union federation,'' and Article 11 mandates 
that all unions must be approved by the next higher-level union body, 
giving the ACFTU an absolute veto over the establishment of any local 
union and the legal authority to block independent labor associations. 
PRC Trade Union Law, enacted 3 April 1992, amended 27 October 01, art. 
10, 11.
    \11\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by General Assembly resolution 2200A (XXI) of 16 December 66, 
entry into force 23 March 76, art. 22. The Chinese government has 
committed itself to ratifying, and thus bringing its laws into 
conformity with, the ICCPR and reaffirmed its commitment as recently as 
April 13, 2006, in its application for membership in the UN Human 
Rights Council. China's top leaders have previously stated on three 
separate occasions that they are preparing for ratification of the 
ICCPR, including in a September 6, 2005, statement by Politburo member 
and State Councilor Luo Gan at the 22nd World Congress on Law, in 
statements by Chinese Premier Wen Jiabao during his May 2005 Europe 
tour, and in a January 27, 2004, speech by Chinese President Hu Jintao 
before the French National Assembly. As a signatory to the ICCPR, China 
is required under Article 18 of the Vienna Convention on the Law of 
Treaties, to which it is a party, ``to refrain from acts which would 
defeat the object and purpose of a treaty'' it has signed. Vienna 
Convention on the Law of Treaties, enacted 23 May 69, entry into force 
27 January 80, art. 18.
    \12\ PRC Trade Union Law, art. 2, 4.
    \13\ For an overview of ACFTU programs hat have promoted worker 
rights, see the section on ``ACFTU Role in Protecting Worker Rights'' 
in the CECC 2006 Annual Report, 67. For a summary of surveys of trade 
union leadership in Guangzhou and Shenyang, see ``Is the All China 
Federation of Trade Unions Merely a Front for the Communist Party and 
Enterprise Management?,'' China Labour Bulletin (Online), 1 August 07.
    \14\ See the CECC Political Prisoner Database for more details.
    \15\ According to information from the ACFTU reported by CSR Asia 
Weekly, the government enacted its first comprehensive labor law in 
1994, and officials first proposed supplementing it with a labor 
contract law in 1996. After drafting of the law stalled in 1998, work 
on a new labor contract law began in 2004. ``Labour Contract Law of the 
PRC,'' CSR Asia Weekly (Online), 4 July 07. ``China's Legislature 
Adopts Labor Contract Law,'' Xinhua (Online), 29 June 07. The 
government claimed that more than 65% of the comments were from Chinese 
workers. ``Chinese Public Makes Over 190,000 Suggestions on Draft Labor 
Contract Law,'' Xinhua, 21 April 06 (Open Source Center, 21 April 06).
    \16\ CECC Staff Interviews.
    \17\ PRC Labor Contract Law, adopted 29 June 07, art. 2.
    \18\ PRC Labor Law, art. 16, 19.
    \19\ PRC Labor Contract Law, art. 10. If no contract exists at the 
time the relationship starts, it must be signed within one month.
    \20\ Ibid., art. 14.
    \21\ Ibid., art. 14.
    \22\ Ibid., art. 17.
    \23\ Ibid., art. 36-50 (on terminations generally); 57-67 (on 
workers employed through staffing firms); and 80-95 (on legal 
liability). See also discussion infra.
    \24\ Josephine Ma, ``New Law To Protect Mainland Workers,'' South 
China Morning Post (Online), 30 June 07.
    \25\ For an overview of several surveys on the use of labor 
contracts, see ``Internal Migrants: Discrimination and Abuse,'' Amnesty 
International (Online), 1 March 07.
    \26\ As the China Labour Bulletin observes, ``All too often in 
China, employers can disregard the terms and conditions of the 
contracts they have signed with their workers and impose their own 
terms and conditions as and when it suits them.'' ``National People's 
Congress Approves New Labour Contract Law,'' China Labour Bulletin 
(Online), 29 June 07.
    \27\ Article 97 states that written contracts established before 
the law's implementation remain in force, but includes no provisions to 
address existing written contracts that do not abide by the terms of 
the Labor Contract Law. PRC Labor Contract Law, art. 97.
    \28\ Ibid., art.62.
    \29\ Ibid., art.22.
    \30\ ``Employers Sacking Workers Before the Labour Contract Law Is 
Implemented,'' China Labour Bulletin (Online), 14 September 07.
    \31\ PRC Labor Contract Law, art.58.
    \32\ Ibid., art.63.
    \33\ Ibid., art.62(3), 62(5).
    \34\ Ibid., art.64.
    \35\ Ibid., art. 60.
    \36\ See, e.g., PRC Labor Contract Law (Draft) [Zhonghua renmin 
gongheguo laodong hetong fa (cao an)], 20 March 2006, art. 12, 24, 40.
    \37\ PRC Labor Contract Law, art. 72.
    \38\ ``Draft Labour Contract Law Improves Protection of Part-Time 
Workers,'' Xinhua (Online), 24 June 07. The foreign-owned fast food 
restaurants investigated also denied part-time workers benefits and 
failed to abide by overtime regulations, among other violations. ``Fast 
Food and Wages in China,''CSR Asia, (Online), 12 April 07.
    \39\ PRC Labor Contract Law, art. 72.
    \40\ Ibid., art. 71.
    \41\ PRC Labor Contract Law (Draft), art. 33.
    \42\ PRC Labor Contract Law, art. 41.
    \43\ Ibid., art. 41.
    \44\ Ibid., art. 42.
    \45\ Ibid., art. 43.
    \46\ Ibid., art. 46.
    \47\ Ibid., art. 47.
    \48\ Ibid., art. 47.
    \49\ Ibid., arts. 73-74.
    \50\ Ibid., arts. 76.
    \51\ Translated portions of the study, conducted by the State 
Council Research Office Study Group and originally published as the 
book China Peasant Worker Research Report in April 2006, is available 
at ``PRC: Excerpts of State Council Research Report on Migrant 
Workers,'' Open Source Center, 12 September 07.
    \52\ PRC Labor Contract Law, art. 77.
    \53\ Ibid., art. 82.
    \54\ See generally Chapter 7, Legal Liability (articles 80-95) in 
the Labor Contract Law.
    \55\ Ibid., art. 90. Article 86 holds either party liable where an 
invalid contract causes harm to one side.
    \56\ Ibid., arts. 51-56. The draft of the law released in March 
2006 provided for collective bargaining but lacked the consolidated set 
of provisions of the final version. PRC Labor Contract Law (Draft), 
art. 7, 11, 23, 44, 45, 46, 48, 50, 51.
    \57\ PRC Trade Union Law, art. 20; Provisions on Collective 
Contracts [Jiti hetong guiding], issued 20 January 04.
    \58\ CECC Staff Interviews.
    \59\ PRC Labor Contract Law, art. 51. See also ``National People's 
Congress Approves New Labour Contract Law,'' China Labour Bulletin.
    \60\ Simon Clarke, Chang-Hee Lee, and Qi Li, ``Collective 
Consultation and Industrial Relations in China,'' 42 Brit. J. 
Industrial Relations 235, 242 (2004).
    \61\ Ibid., 246-247.
    \62\ Information provided by U.S. Embassy Beijing.
    \63\ ``ACFTU Issues `2006 Blue Book on Chinese Trade Unions 
Safeguarding the Rights and Interests of Workers,''' People's Daily, 
reprinted on China Trade Union News (Online), 15 May 07.
    \64\ PRC Labor Contract Law, art. 18.
    \65\ Ibid., art. 26.
    \66\ Ibid., art. 56.
    \67\ Ibid., art. 77-78.
    \68\ For a description of costs involved, see ``Xinjiang People's 
Congress Representative Appeals for Abolition of Labor Arbitration 
Procedure'' [Xinjiang renda daibiao huyu quxiao laodong zhongcai 
qianzhi de falu chengxu], Xinhua (Online), 20 January 06.
    \69\ PRC Labor Law, art. 77-84.
    \70\ Compare PRC Labor Law, enacted 5 July 94, art. 79 to PRC Labor 
Contract Law, adopted 29 June 07, arts. 26, 56, 77.
    \71\ ``Law To Deal with Rising Number of Labor Disputes To Be 
Enacted,'' Xinhua, 27 August 07, reprinted on the National People's 
Congress Web site.
    \72\ Ibid.
    \73\ ``National People's Congress Approves New Labour Contract 
Law,'' China Labour Bulletin. For additional evaluations, see, e.g., 
Tim Costello, Brendan Smith, and Jeremy Brecher, ``Labor Rights in 
China,'' Foreign Policy in Focus (Online), 21 December 06.
    \74\ See, e.g., Bill Savadove, ``Firms Say New Labour Law is a Step 
Backwards,'' South China Morning Post (Online), 21 March 06; Bill 
Savadove, ``Labour Law Won't Go to NPC in March; But Regulation--Which 
Foreign Firms Say is Too Strict--Still Expected To Pass This Year,'' 
South China Morning Post (Online), 31 January 07; Joe McDonald, ``China 
Due to Enact New Labor Law After Heated Debate,'' Associated Press, 27 
June 07; Joseph Kahn and David Barboza, ``China Passes a Sweeping Labor 
Law,'' New York Times (Online) 30 June 07.
    \75\ CECC Staff Interviews. Comments addressed the draft version 
released in March 2006 and subsequent revisions. See, e.g., American 
Chamber of Commerce in the People's Republic of China, ``Comments on 
the Draft Labor Contract Law of the People's Republic of China,'' 19 
April 06; US-China Business Council, ``Comments on the Draft Labor 
Contract Law of the People's Republic of China (Draft of March 20, 
2006),'' 19 April 06; American Chamber of Commerce in Shanghai, 
``AmCham Shanghai and AmCham China (Beijing) Comments on Draft Two of 
the PRC Labor Contract Law,'' last viewed 7 October 07; US-China 
Business Council, ``Comments on the Draft People's Republic of China 
Law on Employment Contracts (Draft of December 24, 2006),'' last viewed 
7 October 07.
    \76\ American Chamber of Commerce, ``Comments on the Draft Labor 
Contract Law.''
    \77\ CECC Staff Interviews; US-China Business Council, ``Comments 
on the Draft People's Republic of China Law on Employment Contracts 
(Draft of December 24, 2006);'' Sarah Schafer, ``Now They Speak Out,'' 
Newsweek International (Online), 28 May 07; Andrew Batson and Mei Fong, 
``China Toils Over New Labor Law,'' The Wall Street Journal (Online), 7 
May 2007; ``Undue Influence: Corporations Gain Ground in Battle Over 
China's New Labor Law,'' Global Labor Strategies, March 2007; ``The 
Chinese Draft Contract Law--A Global Debate,'' CSR Asia, 25 April 2007; 
``Behind the Great Wall of China: U. S. Corporations Opposing New 
Rights for Chinese Workers,'' Global Labor Strategies (Online), last 
viewed 7 October 07.
    \78\ CECC Staff Interviews; US-China Business Council, ``Comments 
on the Draft People's Republic of China Law on Employment Contracts 
(Draft of December 24, 2006);'' Batson and Fong, ``China Toils Over New 
Labor Law;'' Schafer, ``Now They Speak Out;'' ``The Chinese Draft 
Contract Law,'' CSR Asia; ``Behind the Great Wall of China,'' Global 
Labor Strategies; ``Twenty-Seven Democrats Ask Bush To Support China's 
Proposed Labor Law,'' Daily Labor Report, No. 213, 3 November 2006, A-
8.
    \79\ US-China Business Council, ``Comments on the Draft People's 
Republic of China Law on Employment Contracts (Draft of December 24, 
2006).''
    \80\ ``Behind the Great Wall of China,'' Global Labor Strategies, 
3; ``The Chinese Draft Contract Law,'' CSR Asia.
    \81\ American Chamber of Commerce, ``Comments on the Draft Labor 
Contract Law.'' AmCham disputed reports that it had opposed the draft 
Labor Contract Law. See American Chamber of Commerce in the People's 
Republic of China, ``Re: Press Reports Concerning AmCham-China and the 
PRC Draft Labor Contract Law,'' 18 June 07.
    \82\ ``European Union Chamber of Commerce in China Welcomes the 
Promulgation of the Labour Contract Law,'' European Chamber of Commerce 
Web site (Online), 1 July 07. Joe McDonald, ``China Due To Enact New 
Labor Law After Heated Debate.''
    \83\ Guan Xiaofeng, ``Labor Law `Will Not Hurt Investment 
Environment,''' China Daily, 3 July 07.
    \84\ Quoted in Jude Blanchette, ``Key Issues for China's New Labor 
Law: Enforcement,'' Christian Science Monitor, 2 July 07.
    \85\ PRC Employment Promotion Law, adopted 30 August 07, art. 28.
    \86\ Ibid., art. 3. Other laws have also included this provision. 
See, e.g., PRC Labor Law, art. 12.
    \87\ PRC Employment Promotion Law, art. 27, 28.
    \88\ Ibid., art. 29.
    \89\ Ibid., art. 31.
    \90\ Ibid., art. 30.
    \91\ Ibid., art. 62.
    \92\ ``Survey: Discrimination in Job Market Common,'' Xinhua 
(Online), 27 June 07.
    \93\ PRC Employment Promotion Law, art. 7.
    \94\ Ibid., art. 9.
    \95\ Ibid., art. 52.
    \96\ Ibid., art. 16.
    \97\ PRC Labor Law, art. 48.
    \98\ PRC Labor Contract Law, art. 72, 74, 85.
    \99\ ``Most Provincial-Level Governments Issue Hourly Minimum Wage 
Standards,'' CECC China Human Rights and Rule of Law Update, November 
2006, 7-8. Legal provisions governing minimum wages require provincial-
level governments to formulate the minimum wage standards for their 
area, in consultation with local unions and businesses. The MOLSS has 
two weeks to review draft standards submitted by the local labor and 
social security bureaus. The standards are deemed approved if the MOLSS 
does not raise objections during this period. The provisions set forth 
a number of factors that provincial governments should consider in 
calculating the minimum wage, including the average salary, minimum 
living expenses, unemployment rate, and level of economic development 
in their area. See generally Provisions on Minimum Wages [Zui di gongzi 
guiding], issued 20 January 04.
    \100\ See ``Most Provincial-Level Governments Issue Hourly Minimum 
Wage Standards,'' CECC China Human Rights and Rule of Law Update, 
November 2006, 7-8, noting that the 2006 MOLSS report recorded the 
highest monthly minimum wage in Shenzhen, at 810 yuan (US$101.25), the 
highest hourly minimum wage in Beijing, at 7.9 yuan (US$0.99), and the 
lowest monthly and hourly minimum wages in Jiangxi, at 270 yuan 
(US$33.75) and 2.7 yuan (US$0.34), respectively.
    \101\ ``China's Trade Union Calls for Minimum Wage Boost,'' Xinhua 
(Online), 19 May 07.
    \102\ ``Internal Migrants: Discrimination and Abuse,'' Amnesty 
International.
    \103\ Ibid.
    \104\ ``Government To Reduce Income Gap Through Reform,'' China 
Daily, 18 July 06 .
    \105\ ``Ministry of Finance 8-Item Work Deciphered: Wage Revolution 
`Limits High [Wages], Stabilizes Middle [Incomes], Brings Up Low 
[Wages]''' [Caizhengbu ba xiang goingzuo jiedu: gongzi gaige ``xian gao 
wen zhong tuo di''], People's Daily (Online), 7 November 06.
    \106\ `` `Limit High [Wages], Stabilize Middle [Incomes], Bring Up 
Low [Wages],' Reducing Subsidies for High Income Earners Is Not the 
Same as Equal Distribution,'' Yanzhao Metropolitan Newspaper, reprinted 
in China Economic Daily, 9 November 06.
    \107\ Stephen Chen, ``Forced Wages Rises Won't Work; Official 
Labour Officer Says Beijing Can't Set Salaries,'' South China Morning 
Post (Online), 18 July 2007.
    \108\ ``Communications Ministry Orders Push To Resolve Unpaid 
Migrant Wage Claims,'' CECC China Human Rights and Rule of Law Update, 
August 2006, 2-3.
    \109\This number figure represents a decrease from previous years 
in the amount of unpaid wages. ``Internal Migrants: Discrimination and 
Abuse,'' Amnesty International.
    \110\ ``Migrants Frustrated Over Unpaid Wages, Xinhua, reprinted in 
China Daily, 31 December 06.
    \111\ Implementing Measures for the Qinghai Province Construction 
Sector Migrant Worker Wage Payment Deposit System (Trial Measures) 
[Qinghaisheng jianshe lingyu nongmingong gongzi zhifu baozhengjin zhidu 
shishi banfa (shixing)], issued October 06, art. 2, 17.
    \112\ ``30 Firms Blacklisted for Defaulting Wages,'' Xinhua 
(Online), 27 June 06.
    \113\ See, e.g., Chenyan Liu, ``China's Construction Sector: 
Untangling CSR Issues,'' CSR Asia Weekly, Vol. 1 Week 22, 2005. 
``Internal Migrants: Discrimination and Abuse,'' Amnesty International.
    \114\ `More on Migrants Beaten Up in China After Demanding Unpaid 
Wages,'' BBC Monitoring Asia Pacific, citing Xinhua, 2 July 07. Zhuang 
Pinghui, ``Gang Beat Migrants Demanding Wages,'' South China Morning 
Post (Online), 2 July 07.
    \115\ See, e.g., ``Internal Migrants: Discrimination and Abuse,'' 
Amnesty International. See also the CECC 2006 Annual Report, 65-66, for 
more information on financial and other obstacles workers face in 
trying to recover wages and resolve other disputes.
    \116\ See Ministry of Labor and Social Security (Online), ``2006 
Statistical Communique on the Development of Labor and Social Security 
Affairs,'' last visited 10 October 07. For statistics by year, see data 
from the National Bureau of Statistics of China Web site. See also Guan 
Xiaofeng, ``Labor Disputes Threaten Stability,'' China Daily, 30 
January 07 Open Source Center, 30 January 07); ``China To Enact Law To 
Deal With Rising Number of Labor Disputes,'' Xinhua, 26 August 07 (Open 
Source Center, 26 August 07).
    \117\ ``Labour Disputes Threaten China's Stability: Report,'' 
Reuters (Online), 30 January 07.
    \118\ PRC Labor Law, art. 36.
    \119\ Dexter Roberts and Pete Engardio, ``Secrets, Lies, and 
Sweatshops,'' Business Week, 27 November 2006.
    \120\ China Labour Bulletin, ``Falling Through the Floor: Migrant 
Women Workers' Quest for Decent Work in Dongguan, China,'' September 
06, 6, 10, 15.
    \121\ Dexter Roberts and Pete Engardio, ``Secrets, Lies, and 
Sweatshops.''
    \122\ ``Work Injury Insurance Covers 100 Million Chinese,'' 
Corporate Social Responsibility Asia, 29 February 06; ``Loopholes Seen 
To Undermine China's Unemployment Insurance System,'' BBC Asia, 6 
December 2006.
    \123\ ``Extending Old-age Insurance Coverage in the People's 
Republic of China,'' International Labor Organization (Online), January 
06, 6, 19.
    \124\ Working Conditions in China: Just and Favorable, Staff 
Roundtable of the Congressional-Executive Commission on China, 3 
November 05, Testimony of Dan Viederman, Verite.
    \125\ ``Internal Migrants: Discrimination and Abuse,'' Amnesty 
International.
    \126\ Women are entitled to 90 days of leave under the 1994 Labor 
Law. PRC Labor Law, art. 62.
    \127\ The survey data was collected from 6,595 questionnaires 
handed out in 416 villages and four cities. ``Female Migrants Suffering 
at Work,'' China Daily, 30 November 06 (Open Source Center, 30 November 
06).
    \128\ ``No Social Aid, Work Contracts for 50 Per Cent of Women in 
Chinese Cities-Poll'' BBC Asia, 10 December 2006 (Nexis, 10 December 
06).
    \129\ PRC Labor Law, art. 73.
    \130\ See, e.g., ``MOLSS Circular Concerning Implementation of the 
Essence of the State Council Standing Committee on Issues Related To 
Strengthening Social Security Funds Supervision'' [Laodong he shehui 
baozhangbu guanyu guancheluoshi guowuyuan changwu huiyi jingshen 
jiaqiang shehui baoxian jijin jianguan youguan wenti de tongzhi], 
issued 30 November 06; See also Opinion Concerning Strengthening Social 
Security Fund Supervision and Enforcing Fund Rules [Guanyu jin yi bu 
jiaqiang shehui baoxian jijin jianguan yansu jijin jilu de yijian], 
issued 29 September 06. For more information, see, e.g., Mu Tzu, 
``Central Authorities Will Recover Power of Social Security Fund 
Management,'' Hong Kong Commercial Daily, 27 September 06 (Open Source 
Center, 29 September 06).
    \131\ Cary Huang, ```Iron Face' Vows To Stop Forever Misuse of 
Social Security Funds,'' South China Morning Post (Online), 25 June 07.
    \132\ Pete Engardio, Dexter Roberts, Frederik Balfour, and Bruce 
Einhorn, ``Broken China,'' Business Week (Online), 23 July 07.
    \133\ ``2020 Set as Goal for National Insurance Plan,'' South China 
Morning Post (Online), 13 October 06.
    \134\ ``Government Strengthens Enforcement of Requirements on 
Injury Insurance,'' CECC China Human Rights and Rule of Law Update, 
October 2006, 4.
    \135\ CECC Staff Interviews.
    \136\ See, e.g., ``Fatalities Down in Work Accidents, But China's 
Work Safety Still `Grim,''' Xinhua, 28 August 07 (Open Source Center, 
28 August 07); ```Work Safety Situation Still Grim,''' China Daily 
(Online), 3 September 07.
    \137\ ``35,800 Firms Ordered To Close Over Safety Concerns,'' 
Xinhua (Online), 16 February 06.
    \138\ Sixth Amendment to the Criminal Law of the People's Republic 
of China [Zhonghua renmin gonghe guo xingfa xiuzheng an (liu)], issued 
29 June 06. See also PRC Criminal Law, enacted 1 July 79, amended 14 
March 97, 25 December 99, 31 August 01, 29 December 01, 28 December 02, 
28 February 05, 29 June 05, 29 June 06, art. 244.
    \139\ Bureau of Democracy, Human Rights, and Labor, Country Reports 
on Human Rights Practices--2006, China (includes Tibet, Hong Kong, and 
Macau) (Online), 6 March 07.
    \140\ Ibid.
    \141\ ``700 Million People Might Suffer from Occupational 
Illnesses, Government Says,'' China Labour Bulletin (Online), 23 
January 06.
    \142\ China Labour Bulletin, ``Falling Through the Floor: Migrant 
Women Workers' Quest for Decent Work in Dongguan, China.''
    \143\ ``China Sees Coal Mine Deaths Fall, But Outlook Grim,'' 
Reuters (Online), 10 January 07.
    \144\ Simon Elegant and Zhang Jiachang, ``Where the Coal Is Stained 
with Blood,'' Time Magazine, 2 March 07.
    \145\ ``Government Issues New Coal Mine Provisions as Mining 
Fatalities Increase,'' CECC China Human Rights and Rule of Law Update, 
December 06, 7-8.
    \146\ Investigation cited in ``95.6 Per Cent of All Officials in 
Mining Disaster Cases Receive No Punishment or Get a Suspended 
Sentence,'' China Labour Bulletin, May 24, 2006.
    \147\ Ibid.
    \148\ ``China Criticizes Mine Cover-ups,'' Agence France-Presse, 19 
April 07 (Nexis, 19 April 07).
    \149\ Rising prices for coal, which makes up over 70 percent of 
China's energy supply, have fueled the proliferation on small, 
unregulated mines. ``China's Coal Mines Bottoming Out,'' The Economist 
(Online), 23 August 07.
    \150\ Elegant and Zhang, ``Where the Coal Is Stained with Blood.''
    \151\ Translated portions of the study, conducted by the State 
Council Research Office Study Group and originally published as the 
book China Peasant Worker Research Report in April 2006, is available 
at ``PRC: Excerpts of State Council Research Report on Migrant 
Workers,'' Open Source Center, 12 September 07.
    \152\ Vivien Cui and Kevin Huang, ``China's Neglected 
`Untouchables,''' South China Morning Post, 1 May 06.
    \153\ Raymond Li, ``Legal Aid Network To Help Migrants; Pact to 
Tackle Unpaid Wages and Injuries,'' South China Morning Post, 5 July 
2007.
    \154\ Josephine Ma, ``Pension Plan for Migrant Workers,'' South 
China Morning Post, 12 June 07.
    \155\ ``Extending Old-age Insurance Coverage in the People's 
Republic of China,'' International Labor Organization (Online), January 
06, 29.
    \156\ ILO Convention (No. 138) concerning Minimum Age for Admission 
to Employment, 26 June 73; ILO Convention (No. 182) concerning the 
Prohibition and Immediate Action for the Elimination of the Worst Forms 
of Child Labour, 17 June 99.
    \157\ PRC Labor Law, enacted 5 July 94, art. 15. See also Law on 
the Protection of Minors, issued 4 September 91, art. 28. See generally 
Provisions on Prohibiting the Use of Child Labor [Jinzhi shiyong 
tonggong guiding], issued 1 October 02.
    \158\ Provisions on Prohibiting the Use of Child Labor, art. 6.
    \159\ This provision was added into the fourth amendment to the 
Criminal Law in 2002. Fourth Amendment to the Criminal Law of the 
People's Republic of China [Zhonghua renmin gonghe guo xingfa xiuzheng 
an (si)], issued 28 December 02. See also PRC Criminal Law, enacted 1 
July 79, amended 14 March 97, 25 December 99, 31 August 01, 29 December 
01, 28 December 02, 28 February 05, 29 June 05, 29 June 06, art. 244.
    \160\ ``Small Hands: A Survey Report on Child Labour in China,'' 
China Labour Bulletin (Online), September 07, 3.
    \161\ Ibid., 8.
    \162\ Ibid., 15, 22, 25-32.
    \163\ For more information on this phenomenon, see Report of the 
Committee of Experts on the Application of Conventions and 
Recommendations Worst Forms of Child Labour Convention, 1999 (No. 182) 
China (ratification: 2002) Observation, CEACR 2006/77th Session, 
International Labor Organization (Online), 2006.
    \164\ See, e.g., ILO Convention (No. 182) concerning the 
Prohibition and Immediate Action for the Elimination of the Worst Forms 
of Child Labour, art. 3, defining such labor to include forced or 
compulsory labor.
    \165\ See, e.g., ``Olympic Firm Admits Child Labour,'' BBC 
(Online), 13 June 07.
    \166\ For the government response to forced labor in brick kilns, 
including child labor, see, e.g., Zhang Pinghui, ``Crackdown on Slave 
Labour Nationwide--State Council Vows To End Enslavement,'' South China 
Morning Post (Online), 21 June 07.
    \167\ ``Xinjiang Government Continues Controversial `Work-Study' 
Program,'' CECC China Human Rights and Rule of Law Update, November 
2006, 11.
    \168\ Provisions on Prohibiting the Use of Child Labor, art. 13.
    \169\ PRC Education Law, issued 18 March 95, art. 58.
    \170\ See generally ``Regulation on Nationwide Temporary Work-Study 
Labor for Secondary and Elementary Schools'' [Quanguo zhong xiaoxue 
qingongjianxue zanxing gongzuo tiaoli], issued 20 February 83.
    \171\ ILO Convention 138 permits vocational education for underage 
minors only where it is an ``integral part'' of a course of study or 
training course. ILO Convention 182 obligates Member States to 
eliminate the ``worst forms of child labor,'' including ``forced or 
compulsory labor.'' ILO Convention (No. 138) concerning Minimum Age for 
Admission to Employment; ILO Convention (No. 182) concerning the 
Prohibition and Immediate Action for the Elimination of the Worst Forms 
of Child Labour.
    \172\ Report of the Committee of Experts on the Application of 
Conventions and Recommendations Worst Forms of Child Labour Convention, 
International Labor Organization.
    \173\ ``Henan Teacher Recruits Underage Students for Work in 
Zhejiang Factory,'' CECC China Human Rights and Rule of Law Update, 
November 2006, 8.
    \174\ ``Teachers Arrange for Underage `Interns' To Work at 
Guangdong Electronics Factory,'' CECC China Human Rights and Rule of 
Law Update, June 2006, 15.
    \175\ Howard W. French, ``Child Slave Labor Revelations Sweeping 
China,'' International Herald Tribune (Online), 15 June 07; He Huifeng, 
``I Thought There Was Nothing He Could Take From Me, So I Went'' South 
China Morning Post (Online), 15 June 07; Josephine Ma, ``Trafficker 
Admits To Selling 3,000 Labourers in Three Years,'' South China Morning 
Post (Online), 20 June 07; Zhang, ``Crackdown on Slave Labour 
Nationwide--State Council Vows To End Enslavement;'' Josephine Ma, 
``Illegal Kilns Used Over 50,000 Laborers,'' South China Morning Post 
(Online), 26 June 2007.
    \176\ Howard W. French, ``Child Slave Labor Revelations Sweeping 
China.''
    \177\ ``1,340 Rescued From Forced Labor,'' Xinhua (Online), 13 
August 07.
    \178\ ``Top Official Plays Down Scale of Kiln Slavery,'' South 
China Morning Post (Online), 14 August 07.
    \179\ Cited in Ting Shi, ``Officials Targeted in Slavery Scandal--
Public Anger Mounting at Coercion of Kiln Workers in Shanxi,'' South 
China Morning Post (Online), 18 June 07.
    \180\ Josephine Ma and Ng Tze-wei, ``Police Admit Failure To Stem 
Slavery--Henan Labour Abuses `Solved' Three Years Ago,'' South China 
Morning Post (Online), 20 June 07.
    \181\ Alice Yan, ``Brick Kiln Foreman Gets Death Penalty; 28 Others 
are Jailed,'' South China Morning Post (Online), 18 July 07; ``Death 
Sentence Over China Slave Scandal,'' Agence France-Presse, reprinted in 
Yahoo news, 17 July 07.
    \182\ ``Death Sentence Over China Slave Scandal,'' Agence France-
Presse.
    \183\ ``Top Official Plays Down Scale of Kiln Slavery,'' South 
China Morning Post.
    \184\ Ng Tze-wei, ``Lawyers' Group Calls for Anti-Slavery Law,'' 
South China Morning Post (Online), 10 July 07.
    \185\ CECC Staff Interviews.

                                 <all>

</pre></body></html>
